Donahue, Goldberg,
Weaver & Littleton

1008 Pennsylvania Avenue SE
Washington, DC 20003
(202) 683-6895
donahuegoldberg.com

September 19, 2019
Mr. Scott S. Harris, Clerk
Supreme Court of the
United States
1 First Street NE
Washington, DC 20543
Re: Janice Smyth v. Conservation Commission of Falmouth, No. 19-223
Dear Mr. Harris:
By this letter, Respondents Conservation Commission of Falmouth and the Town of Falmouth,
Massachusetts, consent to the filing of any and all timely filed amicus briefs in this case.
Respectfully submitted,
/s/ Matthew Littleton
Matthew Littleton
Counsel for Respondents
cc: Counsel of Record for Petitioner (via email and overnight mail)

